No. 19-631
IN THE

$>upreme <!Court of tbe mlniteb $>tates
WILLIAM P. BARR, ATTORNEY GENERAL; FEDERAL
COMMUNICATIONS COMMISSION,

v.
AlvIERICAN ASSOCIATION OF POLITICAL CONSULTANTS,
INC., ET AL.,

Petitioners,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. l(h), I hereby certify that the Brief for

Amicus Curiae Chamber of Commerce of the United States of America in Support of
Respondents in Barr v. American Association of Political Consultants, No. 19-631,
complies with the word limitations, as it contains 7,736 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: April 1, 2020

